OIG Investigative Reports, Federal Indictment Unsealed Charging Two Persons with Stealing $163,000 from the U.S. Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of JusticeRoscoe C. Howard, Jr.United States Attorney for theDistrict of Columbia
Judiciary Center555 4th Street, N.W. Washington, D.C. 20530
PRESS RELEASE
FOR IMMEDIATE RELEASESeptember 17, 2002
For Information Contact Public AffairsChanning Phillips  (202) 514-6933
Federal Indictment Unsealed Charging Two Persons with Stealing $163,000 from the U.S. Department of Education
Washington, D.C. - United States Attorney Roscoe C. Howard, Jr. announced the unsealing of a federal Indictment, returned on September 6, 2002, against Silvader Denise Estep, 48, of 9900 Gayle Dr., Fort Washington, Maryland, and Jean Williams Stancell, 53, of 11102 Constellation Avenue, Fort Washington, Maryland, charging them with Conspiracy to Defraud the United States and Theft of Government Property for their roles in a scheme to steal property and money from the U.S. Department of Education. In addition, Estep was charged with False Statements and Stancell was charged with Witness Tampering. The Indictment also seeks forfeiture from both defendants. Estep was arraigned on the charges today in U.S. District Court. Stancell's arraignment date has not yet been set. If convicted of these offenses, Estep could face incarceration from 30 months to 46 months; Stancell could face 30 months to 37 months in prison under the federal sentencing guidelines.
According to the nine-count Indictment, from 1996 through 1999, Department of Education employees Stancell and Estep stole property and money in the amount of $163,000 from Department of Education ("Education") by charging goods and services for themselves and others on government-issued credit cards. During the conspiracy, Stancell and Estep both worked for the Quality Workplace Group ("QWG") at Education. QWG was the facilities management component of Education. Its mission was to hire contractors to perform maintenance work at Education buildings and to purchase furniture and office supplies for Education employees. Education issued VISA credit cards to certain QWG employees in order for them to pay for goods and services. Education developed the following procedures to prevent fraudulent use of credit cards: employees were required to obtain invoices from contractors and vendors when possible, maintain logs of charges, reconcile monthly statement logs, and certify, under penalty of 18 U.S.C. § 1001, that the charges were legitimate. Estep was assigned one of these credit cards. In April 1998, she became the Acting Team II Leader of QWG. This position allowed her to supervise employees and gave her access to the numbers and expiration dates on credit cards issued to her QWG colleagues.
The Indictment charges that Estep and Stancell approached various vendors of Education and asked them to charge the government-issued credit cards for work performed for the benefit of themselves and their associates. At times, Estep, it is alleged, asked a vendor to charge a government-issued credit card without doing any work and to give her the majority of the cash generated by charging the government. In order to disguise the theft, Estep allegedly asked others to create false invoices. At times, Stancell asked a vendor for money in exchange for work orders from Education. Later, Stancell allegedly suggested that this vendor make false statements to the grand jury.
In announcing this Indictment, United States Attorney Howard commended the Federal Bureau of Investigation and Education's Office of Inspector General. In addition, he praised Paralegal Specialist Jeanie Latimore-Brown and Auditor Sandra Henderson. He also commended Assistant U.S. Attorneys Ann Rosenfield, Elizabeth Coombe, and Virginia Cheatham.
An Indictment is merely a formal charge that a defendant has committed a violation of criminal laws and every defendant is presumed innocent until, and unless, proven guilty.
Go to The United States Attorney's Office's Press Release
Page
PLEASE NOTE:  The United States Attorney's Office does not respond to non-technical inquiries made to this website.  If you wish to make a request for information, you may contact our office at 202-514-7566, or you may send a written inquiry to the United States Attorney's Office, District of Columbia, 555 4th Street, N.W., Washington, D.C.  20530.
Top
Printable view
Share this page
Last Modified: 07/13/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov